                                     IG-00-033




AUDIT
         RELIEF GRANTED TO CONTRACTOR FOR
REPORT     OVERPAYMENT OF GENERAL AND
                ADMINISTRATIVE COSTS

                    April 20, 2000
                           OFFICE OF INSPECTOR
                                       GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html



Acronyms
ACO             Administrative Contracting Officer
CACO            Corporate Administrative Contracting Officer
CAS             Cost Accounting Standard
DCAA            Defense Contract Audit Agency
FAR             Federal Acquisition Regulation
G&A             General and Administrative
W                                                                                                April 20, 2000




TO:            A/Administrator

FROM:         W/Inspector General

SUBJECT: INFORMATION: Relief Granted to Contractor for Overpayment of
         General and Administrative Costs
          Report Number IG-00-033


Background

Our office received a copy of a referral alleging that a NASA Administrative Contracting Officer
(ACO)1 exceeded the delegated authority under the contracting warrant and that certain actions did not
safeguard the interests of the U.S. taxpayer. Specifically, the referral stated that the ACO did not
ensure compliance with the terms of the payload ground operations contract at Kennedy, or the Federal
Acquisition Regulation (FAR) and Costs Accounting Standards (CAS)2 in regard to allocating G&A
costs to unallowable costs.

The allegation referred to audit work performed by the Defense Contract Audit Agency (DCAA)3 and
an audit report stating that the contractor was in noncompliance with FAR and CAS because it included
unallowable bonus costs in its computation for billable General and Administrative (G&A)4 costs. This
practice resulted in the contractor improperly billing the Government for G&A costs allocable to
employee bonuses. The DCAA recommended that the contractor adjust its vouchers to exclude G&A
costs allocable to unallowable costs already billed to the

1
  The ACO performs contract administration functions, which are listed in Federal Acquisition Regulation, Subpart 42.3, and
include administration of Cost Accounting Standards.
2
  The 19 cost accounting standards, promulgated by the Cost Accounting Standards Board, are in 48 Code of Federal Regulations,
Chapter 99. The standards are applicable to negotiated prime contracts and subcontracts with the U.S. Government in excess of
$500,000. The standards are numbered and referred to as CAS 401-418 and CAS 420.
3
  The DCAA provides preaward and postaward contract auditing services, internal control system audits, and other support
services to contracting officers from the Department of Defense, NASA, and other Federal agencies.
4
  G&A costs are management, financial, or other costs that are for the general management and administration of a business.
                                                                                                         2


Government and exclude those costs from all future billings. The NASA ACO disagreed with the
DCAA and a former ACO determination, and on January 9, 1999, granted the contractor financial
relief for the G&A costs associated with employee bonuses.

Recommendation, Management’s Response, and OIG Evaluation

On February 14, 2000, we issued a draft report recommending that the Kennedy Center Director
rescind the relief given to the contractor and seek recovery for the unallowable G&A costs paid to the
contractor. Management nonconcurred with the recommendation, stating that the ACO’s “relief
granted” was actually an authoritative determination that, based on the contract proposal and the
parties’ advance agreement, employee bonuses were actually a distribution of fee and not a cost to the
contract. The complete text of management’s response to the draft report is in Appendix C, and OIG
comments on the response are in Appendix D.

Based on management’s response and a lack of clear language in the contract, we concluded that
recovery of the estimated $2 million in G&A costs associated with the bonuses is improbable.
However, NASA could be vulnerable if a similar bonus provision is included in other contracts without
clarifying language. Therefore, we revised the recommendation in this final report to
address future contracts. We recommended that Kennedy should clarify under future contracts whether
any costs paid from fee, direct and indirect, are allocable and allowable. We requested that
management provide additional comments on this report.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Relief Granted to Contractor for Overpayment of
  General and Administrative Costs
                    FINAL REPORT
       AUDIT OF RELIEF GRANTED TO CONTRACTOR
FOR OVERPAYMENT OF GENERAL AND ADMNISTRATIVE COSTS
W                                                                            April 20, 2000




TO:              AA/Director, Kennedy Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of Relief Granted to Contractor for
                 Overpayment of General and Administrative Costs
                 Assignment Number A9907200
                 Report Number IG-00-033


The subject final report is provided for your use and comments. Our evaluation of your
response is incorporated into the body of the report. In response to management’s comments
and our further consideration, we revised the report recommendation. Therefore, we request
management’s comments on the revised recommendation by May 22, 2000. The
recommendation will remain open for reporting purposes.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Ms. Sandra
Massey, Auditor-in-Charge, at (321) 867-4057. We appreciate the courtesies extended to the
audit staff. The final report distribution is in Appendix E.


[Original signed by Lee T. Ball for Mr. Rau]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
                                              2


JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight

bcc:
AIGA, IG, Reading Chrons
H/Audit Liaison Representative
M/Audit Liaison Representative
GRC/W/Audit Program Director
KSC/W/Audit Program Manager
KSC/HM-E/Audit Liaison Representative
                              NASA Office of Inspector General

IG-00-033                                                                                      April 20, 2000
 A9907200

                           Audit of Relief Granted to Contractor
                              For Overpayment of General
                                 And Administrative Costs

Introduction

On February 16, 1999, a referral of fraud, waste, and abuse was made to the General
Accounting Office with a copy to the NASA Office of Inspector General. The Inspector
General agreed to address the referral. The allegation stated that a NASA administrative
contracting officer (ACO)5 exceeded the delegated authority under the contracting warrant and
that the actions did not safeguard the interests of the U.S. taxpayer. Specifically, the referral
stated that the ACO did not ensure compliance with the terms of the payload ground operations
contract at John F. Kennedy Space Center (Kennedy), or the Federal Acquisition Regulation
(FAR) and Costs Accounting Standards (CAS)6 in regard to allocating general and
administrative (G&A)7 costs to unallowable costs.

The allegation referred to audit work performed by the Defense Contract Audit Agency
(DCAA).8 On November 15, 1991, the DCAA issued an audit report stating that the payload
ground operations contractor at Kennedy was in noncompliance with FAR and CAS because it
included unallowable bonus costs in its computation for billable G&A costs. This practice
resulted in the contractor improperly billing the Government for G&A costs allocable to
unallowable base costs that included employee bonuses. The DCAA recommended that the
contractor adjust its vouchers to exclude G&A costs allocable to unallowable costs already
billed to the Government and exclude those costs from all future billings. On February 14,
1992, the DCAA notified the NASA ACO that the contractor continued to be in
noncompliance with FAR and CAS. The ACO agreed with the DCAA and requested a cost
impact proposal from the contractor.


5
  The administrative contracting officer performs contract administration functions, which are listed in Federal
Acquisition Regulation, Subpart 42.3, and include administration of Cost Accounting Standards.
6
  The 19 cost accounting standards, promulgated by the Cost Accounting Standards Board, are in 48 Code of Federal
Regulations, Chapter 99. The standards are applicable to negotiated prime contracts and subcontracts with the U.S.
Government in excess of $500,000. The standards are numbered and referred to as CAS 401-418, and CAS 420.
7
  G&A costs are management, financial, or other costs that are for the general management and administration of a
business.
8
  The DCAA provides preaward and postaward contract auditing services, internal control system audits, and other
support services to contracting officers from the Department of Defense, NASA, and other Federal agencies.
The subsequent NASA ACO disagreed with the DCAA and the former ACO determinations,
and on January 9, 1999, granted the contractor financial relief for the G&A costs associated
with employee bonuses.

Our overall objective was to determine whether NASA inappropriately granted relief to a
contractor for overpayment of G&A costs billed to the Government under the payload ground
operations contract. See Appendix A for details on our scope and methodology.

Results in Brief

We agreed with the DCAA that the contractor improperly billed the Government for G&A
costs allocable to unallowable bonus costs. The bonuses were not reimbursable under the terms
of the contract and, therefore, were unallowable. The G&A costs allocated to unallowable
bonus costs should be identified and excluded from billings to the Government. Although the
NASA ACO did not exceed delegated contracting authority, as alleged in the referral, the ACO
inappropriately authorized reimbursement to the payload ground operations contractor for G&A
costs associated with employee bonuses.

Without seeking legal, procurement, or audit advice, the ACO concluded that the costs
associated with the employee bonuses should be reimbursed even though the bonuses were not
reimbursed. The billing of G&A costs associated with the bonuses warranted a thorough
review, including consultation with audit and legal resources as well as obtaining concurrence of
the NASA Procurement Office at Kennedy. As a result of the ACO’s autonomous action,
NASA reimbursed the contractor an estimated $2 million9 for G&A costs associated with
employee bonuses incurred from 1987 through 1996.

On February 14, 2000, we issued a draft report recommending that the Kennedy Center
Director rescind the relief given to the contractor and seek recovery for the unallowable G&A
costs paid to the contractor. Management nonconcurred with the recommendation, stating that
the ACO’s “relief granted” was actually an authoritative determination that, based on the
contract proposal and the parties’ advance agreement, employee bonuses were actually a
distribution of fee and not a cost to the contract.

Based on management’s response and a lack of clear language in the contract, we concluded
that recovery of the estimated $2 million in G&A costs associated with the bonuses is
improbable. However, NASA could be vulnerable if a similar bonus provision is included in
other contracts without clarifying language. Therefore, we are
revising the audit recommendation to address future contracts.

9
  The DCAA estimated the $2 million by comparing the G&A costs without bonuses in the G&A base ($87,342,971)
and with the bonuses in the G&A base ($85,154,641). The difference of $2,188,330 is the net increased G&A cost to
the Government.


                                                         2
Background
On January 1, 1987, NASA awarded the payload ground operations contract (NAS10-
11400) to McDonnell Douglas Astronautics Company, 10 a division of McDonnell Douglas
Space Systems Corporation. The contract was for management, services, and property
necessary to support all payload activities for which Kennedy has responsibility. The basic
contract and options have a total contract value of about $1.9 billion and cover the 15-year
period from January 1, 1987, through December 31, 2001. Unlike other contracts with the
company, the payload ground operations contract provides that employee bonuses will be paid
from fee. Therefore, NASA does not reimburse the contractor for employee bonuses under
this contract.

On June 22, 1988, the corporate administrative contracting officer (CACO),11 located at
Huntington Beach, California, issued a report to McDonnell Douglas Space Systems
Corporation citing the corporation12 for being in noncompliance with CAS 405, Accounting for
Unallowable Costs. The CACO cited the corporation for being in noncompliance with CAS
405 because the corporation billed the Government for G&A costs allocable to unallowable
costs. See Appendix B for DCAA reports and other correspondence related to the
noncompliance with CAS 405.

On November 15, 1991, the DCAA, Eastern Region, issued Audit Report
No. 1311-91D44200051, citing the payload ground operations contractor for being in
noncompliance with CAS 405 and referencing the prior report from the CACO. The
contractor did not concur with the DCAA report and declined to make any changes in the
accounting treatment of the employee bonuses until the CAS 405 issue was resolved at the
corporate level. Resolution at the corporate level was delayed pending the outcome of
contractor appeals related to CAS 405 and subsequent court rulings.13

In 1992, the NASA ACO at Kennedy issued a final determination that the payload ground
operations contractor’s billing of G&A costs allocable to unallowable costs (employee bonuses)




10
   The company is also known as the Kennedy Space Center Division under which the payload ground operations
contract is performed.
11
   The CACO is a civil service employee who performs contract administration functions at the corporate level.
12
    The CACO informs the contractor of the initial determination of noncompliance. If the contractor disagrees with the
determination, it may submit a rebuttal. After considering any additional information provided by the contractor, the
CACO then issues a final determination, which the contractor may appeal.
13
   Martin Marietta brought a similar CAS 405 noncompliance issue before the Armed Services Board of Contract
Appeals. Although the Board ruled against the Government, a Federal Circuit Court decision on December 28, 1993,
overturned the Board’s previous decision, and the G&A costs allocated to unallowable costs again became unallowable.


                                                           3
was in noncompliance with CAS 405 and the contractor’s disclosure statement.14 In addition,
the ACO requested that the contractor submit a cost impact proposal.

Once the court issued its final ruling in favor of the Government in 1993, the CACO began
negotiating a settlement with McDonnell Douglas at the corporate level for the CAS 405
violation. The CACO instructed the subsequent NASA ACO at Kennedy to address the CAS
405 issue relating to bonuses because the treatment of bonuses was unique to the payload
ground operations contract15 under the ACO's administration.

Payment of Unallowable G&A Costs

Finding. NASA inappropriately reimbursed the payload ground operations contractor for
G&A costs associated with employee bonuses. The terms of the contract excluded bonuses
from reimbursement, which made them unallowable. Accordingly, the contractor should not
have charged the associated G&A costs to the Government. Without seeking legal,
procurement, or audit advice, the NASA ACO inappropriately concluded that the contractor
should be reimbursed these costs even though the bonuses were not reimbursed. As a result,
the contractor received an estimated $2 million related to unallowable costs incurred from 1987
through 1996.

FAR Requirements for Treatment of G&A Costs Associated with Unallowable Costs

The FAR, Section 31.001, defines unallowable costs as any cost which, under the provisions of
a contract, cannot be included in cost reimbursements under a Government contract to which it
is allocable.16 Although the payload ground operations contract does not specifically state that
employee bonuses are unallowable, it does state that “employee bonuses paid pursuant to the . .
. employee bonus plan, dated January 1987, will be paid out of fee.” The NASA acquisition
team stated that NASA had experienced escalating employee bonus costs under previous
contracts. Therefore, NASA decided that bonuses would not be reimbursed under the payload
ground operations contract but would be paid from award fee.17 Because the bonuses were
allocable, but not reimbursable under the contract, they met the FAR definition of unallowable
costs.


14
   A disclosure statement is a written description of a contractor’s cost accounting practices and procedures. Any
business unit receiving a CAS covered contract or subcontract of $25 million or more must submit a disclosure
statement before contract award.
15
   Unlike other contracts, the payload ground operations contract provides that employee bonuses will be paid from fee.
Therefore, NASA does not reimburse the contractor for employee bonuses under this contract.
16
   FAR 31.201-4 states that a cost is allocable to a Government contract if it (a) is incurred specifically for the contract,
(b) benefits both the contract and other work and can be distributed in reasonable proportion to the benefits received, or
(c) is necessary to the overall operation of the business.
17
   Award fee is a monetary award paid to the contractor based on the Government’s judgmental evaluation, which must
be sufficient to provide motivation for excellence in contract performance.


                                                              4
As prescribed by FAR, Section 31.203(c), all items that would be part of the cost input base,18
whether allowable or unallowable, shall bear their pro rata share of G&A costs. Thus, the
employee bonuses should be a part of the cost input base and bear a pro rata share of G&A
costs. CAS 405 describes the practice for accounting for unallowable costs. This standard
provides that any costs directly associated with unallowable costs are also unallowable. The
unallowable costs should be identified and excluded from billings to the Government. Pursuant
to CAS 405, the G&A costs allocated to unallowable bonus costs should be identified and
excluded from billings to the Government.

NASA Grants Financial Relief to a Contractor

The NASA ACO did not formally document the ACO review of the proper accounting
treatment of employee bonus costs and its applicability to CAS 405. The ACO review
consisted of examining excerpts from the payload ground operations contract and the original
contract proposal19 provided by the contractor. Based on the review, the ACO inappropriately
concluded that because the contractor agreed to pay bonuses from award fee, the bonuses
were not a cost under the contract. Therefore, the ACO decided that the costs could neither be
characterized as unallowable nor subject to CAS 405. The NASA ACO did not agree with the
DCAA that the contractor was in noncompliance with CAS 405 with regard to the bonuses.

In addition, the ACO inappropriately accepted the contractor’s explanation that the accounting
treatment for the bonuses paid from 1987 to 1991 was in error and that the impact was
immaterial to the Government. Specifically, the contractor recorded the bonuses in a cost base
that carried a share of G&A costs. The contractor contended that the bonuses should not have
been included in the base and should not have carried a share of G&A costs. Accordingly, the
contractor excluded the bonuses from the cost base for 1992 through 1996. In contrast to the
DCAA’s estimated impact of more than $600,000 for 1987 through 1991, the contractor
asserted that the impact to the Government was immaterial.20 The ACO agreed with the
contractor and on January 9, 1999, issued a letter relieving the contractor of the G&A costs
associated with the bonuses.

Procurement or Legal Advice

Although the ACO did not exceed delegated contracting authority as alleged by the DCAA, the
ACO did not follow FAR or Agency procedures before granting relief to the contractor.


18
    The cost input base is the cost, except G&A costs, which is allocable to the production of goods and services during a
cost accounting period.
19
   In response to NASA’s request for proposal, McDonnell Douglas Astronautics Company submitted a cost-plus-
award-fee proposal for performing the work specified under the payload ground operations contract.
20
   In response to a November 1991 DCAA report, McDonnell Douglas Astronautics Company prepared a cost impact
proposal identifying the G&A costs allocable to unallowable costs as $21,803.


                                                             5
FAR and Agency Requirements for Contracting Officers. NASA established controls to
ensure that procurement actions are in accordance with FAR requirements and in the best
interest of the Government. Contracting officers are responsible for ensuring performance of all
necessary actions for effective contracting, ensuring compliance with the terms of the contract,
and safeguarding the interests of the U.S. in its contractual relationships. Those responsibilities
are described in FAR 1.6. The FAR provides contracting officers wide latitude to exercise
business judgment. However, FAR Section 1.602-2 provides that contracting officers request
and consider the advice of specialists in audit, law, and other fields as appropriate. Further, the
ACO’s certificate of appointment 21 for contracting officer authority specifies that any
determinations made that conflict with the DCAA recommendations require the concurrence of
the procurement officer or his deputy.

In addition, NASA Policy Directive 5101.1D, “Requirements for Legal Review of Procurement
Matters,” states that NASA legal counsel will provide advice and services to NASA on
procurement matters that arise out of contract award and administration.

The ACO’s 1999 action reversed the prior ACO’s 1992 determination that the contractor was
in noncompliance with CAS 405. In addition, the ACO’s action conflicted with the audit
recommendation contained in the 1991 DCAA report to exclude from reimbursement the G&A
costs already billed to the Government. Prior to granting relief, the ACO did not obtain a
NASA legal review or concurrence of the procurement officer or his deputy as required by the
NASA directive and the contracting officer warrant. Notwithstanding these procurement
requirements, the ACO believed that under the provisions of FAR 1.6, the ACO had wide
latitude to address the CAS 405 issue and was not required to take any other actions.

Management’s Response to Draft Recommendation

On February 14, 2000, we issued the draft of this report, which recommended that the
Director, Kennedy Space Center, rescind the relief given to the contractor and seek recovery
for the unallowable G&A costs paid to the contractor. Management nonconcurred with the
recommendation, stating that the ACO’s “relief granted” was actually an authoritative
determination that, based on the contract proposal and the parties’ advance agreement,
employee bonuses were actually a distribution of fee and not a cost to the contract. The
complete text of management’s response is in Appendix C. Our comments on management’s
response are in Appendix D.

Need for Clear Language on Bonuses




21
 On March 17, 1997, the ACO was appointed Contracting Officer and was authorized to take actions with respect to
contract administration services.


                                                        6
We maintain our position that the employee bonuses were unallowable under the contract and
that a share of G&A should have been identified and excluded from billings to the Government.
In the absence of clear contract language related to the allowability of the bonus costs and of
evidence of the intent of the parties, resolution of the allowability issue rests solely on contract
interpretation. Kennedy management concluded that the bonuses were not a cost under the
contract based on the contract proposal and the parties’ advance agreement. However, the
contract proposal did not address the treatment of G&A costs associated with the employee
bonuses and the parties’ advance agreement was an oral agreement. As a result, we relied on
the application of FAR and CAS provisions to determine the proper treatment of bonuses and
associated G&A costs.

The payload ground operations contract did not clearly state that the costs for employee
bonuses and any associated G&A costs would be unallowable. The DCAA reviewed the
contract proposal and recommended that the following specific language be included in any
contract resulting from the proposal.

        Beginning 1 January 1987, incentive compensation and bonuses (except for the executive bonus
        plan) for direct/indirect employees shall not be an allowable cost, either direct or indirect, to this
        contract.


The contract did not include the recommended language, but stated only that “bonuses would
be paid from fee.” If the parties had clearly stated in the contract that the bonuses were
unallowable, then the $2 million G&A costs associated with the bonuses would have been
recoverable by the Government.

Based on management’s response and a lack of clear language in the contract, we concluded
that recovery of the estimated $2 million in G&A costs associated with the bonuses is
improbable. However, NASA could be vulnerable if a similar bonus provision is included in
other contracts without clarifying language. Therefore, we are revising our recommendation to
address future contracts. We request that management provide additional comments on this
report. The recommendation is considered unresolved and open for reporting purposes.

Recommendation for Corrective Action

The Director, Kennedy Space Center, should clarify in future contracts whether any costs paid
from fee, direct and indirect, are allocable and allowable.




                                                           7
              Appendix A. Objectives, Scope, and Methodology

Objective

Our overall objective was to determine whether NASA inappropriately granted relief to a
contractor for overpayment of G&A costs billed to the Government under the payload ground
operations contract.

Scope and Methodology

We limited our review to the alleged CAS 405 violation relating to G&A costs for employee
bonuses paid by McDonnell Douglas Astronautics Company under the payload ground
operations contract. We interviewed NASA procurement officials, DCAA representatives and
contractor employees regarding the contract negotiation and award as well as accounting
treatment for employee bonuses paid under the contract.

Management Controls Reviewed

We reviewed the following management controls:

       •    FAR, Subpart 1.6, “Career Development, Contracting Authority, and
            Responsibilities,” which describes the responsibilities for contract administration.

       •    FAR, Part 31, “Contract Costs, Principles, and Procedures,” defines unallowable
            costs.

       •    FAR, Subpart 31.2, “Contracts with Commercial Organizations,” which describes
            composition of total costs and lists factors for determining whether a cost is
            allowable.

       •    FAR, Subpart 42.3, “Contract Administration Office Functions,” which describes
            the functions delegated to an ACO.

       •    NASA Policy Directive 5101.1D, “Requirements for Legal Review of Procurement
            Matters,” which requires a NASA legal review of contract administration and
            award activities.

Audit Field Work

We performed audit field work from September 1999 to January 2000 at NASA Headquarters
and Kennedy. We conducted the audit in accordance with generally accepted government
auditing standards.


                                                 8
     Appendix B. Reports and Correspondence Addressing CAS 405

DCAA Report of Noncompliance, Cost Accounting Standard 405, McDonnell
Douglas Space System Company, Kennedy Space Center Division, Report
No. 1311-91D44200051, November 15, 1991. The report states that when computing its
billable G&A costs on its public vouchers, the contractor includes the unallowable base costs,
including bonuses, in its computation even though it does not bill the Government for these
costs. This practice results in the Government being billed for G&A costs allocable to
unallowable base costs which is in noncompliance with CAS 405.40(a). The DCAA
estimated a cost impact of $584,84 through September 30, 1991. DCAA recommended
that the contractor adjust its vouchers to exclude G&A cost allocable to unallowable costs
already billed to the Government. The contractor responded that the CAS 405
noncompliance applies to an ongoing issue with the corporate office and, therefore, the
contractor did not intend to make any changes locally until the issue was resolved.

Letter from the prior ACO to Kennedy Space Center Division, McDonnell
Douglas Space Systems Company, May 5, 1992. The letter communicates the ACO’s
final determination that the contractor’s billing of G&A costs allocable to unallowable costs
is in noncompliance with CAS 405 and the contractor’s disclosure statement.22 The letter
requests the contractor to submit a cost impact proposal.

Letter from McDonnell Douglas Space Systems Company, Kennedy Space
Center Division, June 23, 1992. The contractor reiterated its strong disagreement with
the determination of having noncomplied with CAS 405. The contractor submitted a cost
impact proposal totaling $21,803 associated with the NASA payload ground operations
contract for 1987 through 1991. The letter characterized the cost impact as immaterial.

DCAA Audit Report on Cost Impact Proposal Associated with CAS 405
Noncompliance, Billing of G&A Costs Allocable to Unallowable Costs, McDonnell
Douglas Space Systems Company, Kennedy Space Center Division, August 31,
1992. In the DCAA’s opinion, the cost impact proposal associated with the CAS 405
noncompliance was inadequate because it excluded unallowable bonus and other costs
related to travel. Further, adjusting for the contractor’s error results in increased costs of
$898,660 to the Government; $837,235 of that amount is associated with the payload
ground operations contract.




22
  A disclosure statement is a written description of a contractor’s cost accounting practices and procedures. Any
business unit receiving a CAS covered contract or subcontract of $25 million or more must submit a disclosure
statement before contract award.


                                                         9
Appendix B

Assist Audit on CAS 405 Cost Impact, March 15, 1995. The DCAA Titusville
Branch Office, Florida, prepared the report for DCAA, Huntington Beach, California, to
assist in DCAA’s calculation of the CAS 405 Cost Impact at the corporate level for
calendar years 1987 through 1994. The DCAA report reaffirms its findings to the
contractor in August 1992. The report states that the cost impact prepared by the
contractor is inadequate because it excludes the bonus costs from the cost base.
Therefore, the costs for the bonuses did not receive their pro rata share of the G&A costs.




                                             10
Appendix C. Management’s Response




                11
Appendix C




             12
     Appendix C




13
                  Appendix C




See Appendix D,
OIG Comment 1




See Appendix D,
OIG Comment 2




See Appendix D,
OIG Comment 3




                               14
     Appendix C




                  See Appendix D,
                  OIG Comment 1




15
                  Appendix C




See Appendix D,
OIG Comment 4




                               16
     Appendix C




                  See Appendix D,
                  OIG Comment 5




                  See Appendix D,
                  OIG Comment 6




17
      Appendix D. OIG Comments on Management’s Response

Kennedy management provided the following general comments in its response to our draft
report. Our responses to the comments are also presented.

Management’s Comment. There is no provision within the contract or the FAR cost
principles that makes the costs of such employee bonus payments expressly unallowable.
Generally speaking, the CAS does not determine allowability, but instead addresses
allocability of costs. A fundamental requirement of CAS is that “cost expressly
unallowable or mutually agreed to be unallowable, including costs mutually agreed to be
unallowable directly associated costs, shall be identified and excluded from any billing,
claim, or proposal applicable to a Government contract.”

1. OIG Comments. Although we agree that the bonuses were not stated in the contract
to be expressly unallowable, the parties mutually agreed that bonuses would not be
reimbursed under the contract and they were, therefore, unallowable under the contract
terms. We concluded that the bonuses were unallowable based on FAR 31.001, which
states that unallowable costs are any costs which, under the provisions of a contract,
cannot be included in cost reimbursements under a Government contract to which it is
allocable. We further concluded that these costs were allocable because the bonuses
benefited both the NASA contract and other contract work and could be distributed in
reasonable proportion to the benefits received. This position is strengthened by the fact
that the bonuses were allocable to other contracts with the Government.

Management’s Comment. The latter determination provided by the ACO is not in
disagreement or inconsistent with the former ACO determinations. The determinations of
the former ACO applied generally to unallowable costs and G&A allocation related thereto
and did not focus on or necessarily pertain to bonuses. It is also expected that, had the
former ACO had the opportunity to address bonuses as a stand alone issue, the results
would have been the same.

2. OIG Comments. The former ACO issued a final determination that the contractor’s
billing of G&A allocable to unallowable costs was in noncompliance with CAS 405 and the
contractor’s disclosure statement. DCAA records show that employee bonuses
represented about 99 percent of the questioned unallowable costs for the reported period
1987 through 1991. Consequently, the majority of the CAS 405 noncompliance
addressed by the former ACO’s determination pertained to the bonuses.

Management Comment. Contractors may distribute or use earned fees for any number
of purposes, generally without the need to provide any accounting for its disposition to the
contracting agency. What a contractor elects to do with its earned fee is not governed by
the FAR, NASA FAR Supplement, or CAS.


                                              18
                                                                                Appendix D

3. OIG Comments. We agree that the contractor may use or distribute fee for any
number of purposes. However, the use of fee is not pertinent to the treatment of bonus
costs. The fact that the contractor agreed to pay employee bonuses from fee does not
change the nature of the bonuses as a contractor cost. Further, the contractor agreed to
pay the bonuses from fee only because Kennedy indicated that it would not continue to pay
the contractor’s escalating bonus costs. In addition, the contractor used this strategy to
enhance the likelihood of winning the contract award.

Management Comment. The ACO’s decision to permit the contractor to correct its
reported “error” did not prejudice the Government’s interest or increase the costs
otherwise payable under the contract.

4. OIG Comments. We disagree that the ACO’s action did not increase the cost to
NASA under the contract. By not requiring the contractor to include the bonuses in the
base and bear a pro rata share of G&A, the contractor billed NASA about $2 million
related to the bonus costs incurred from 1987 through 1996.

Management Comment. Kennedy management is concerned that the implied attempt to
interject the DCAA and OIG directly into contract administration activities would
improperly restrict the contracting officer’s delegated authority and would have a serious
impact on the negotiation process and the efficacy of contract settlements.

5. OIG Comments. The Inspector General Act of 1978 established the Offices of
Inspector General to provide independent and objective audits relating to the programs and
operations of the Agency. While fulfilling that purpose, we avoid restricting the contracting
officer’s authority or affecting the negotiation process. For this audit, we reviewed
negotiations and contract provisions that were already completed.

Management Comment. Kennedy management believes it is inappropriate to set a
precedent that would require contractors to account for fee distribution to or profit sharing
with their employees as a part of their G&A cost base.

6. OIG Comments. We are not suggesting that NASA require contractors to account
for fee distribution. Rather, as prescribed by the FAR, NASA must consider the treatment
of costs such as bonuses for allocability and allowability to the contract independent of how
such costs are paid by the contractor.




                                              19
                     Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Center Director, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
  Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
  of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
  Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs



                                          20
                                                                           Appendix E

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees (Cont.)

House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                           21
                        NASA Assistant Inspector General for Auditing
                                       Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of our
reports. We wish to make our reports responsive to our customers’ interests, consistent with our
statutory responsibility. Could you help us by completing our reader survey? For your convenience,
the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector General for
Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Relief Granted to Contractor for Overpayment of
              General and Administrative Costs

Report Number:                                             Report Date:

Circle the appropriate rating for the following statements.

                                                          Strongl                              Strongl
                                                             y      Agree   Neutra   Disagre   y         N/A
                                                          Agree               l         e      Disagre
                                                                                                  e

1.   The report was clear, readable, and logically           5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.                5       4        3         2         1      N/A
3.   We effectively communicated the audit objectives,       5       4        3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to          5       4        3         2         1      N/A
     support the finding(s) in a balanced and objective
     manner.


Overall, how would you rate the report?

         Excellent                   Fair
         Very Good                   Poor
         Good


If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes:______                                      No:______

Name:
_____________________________

Telephone: _________________________

Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

Sandra A. Massey, Auditor-in-Charge

Clara L. Seger, Auditor

Nancy Cipolla, Report Process Manager

Annette Huffman, Program Assistant
